No. 21-268

In the Supreme Court of the United States
COVERALL NORTH AMERICA, INC.,
Petitioner,
v.
CARLOS RIVAS, IN HIS CAPACITY AS
PRIVATE ATTORNEY GENERAL REPRESENTATIVE,
Respondent.

CERTIFICATE OF COMPLIANCE
I, Andrew J. Pincus, hereby certify that, according to the word-count tool in
Microsoft Word, the Brief of the Chamber of Commerce of the United States of
America and National Retail Federation as Amici Curiae In Support of Petitioner
consists of 4,647 words, including footnotes and excluding the sections enumerated
by Rule 33.1(d). The Brief therefore complies with Rule 33.1(g).

Dated: September 23, 2021
Andrew J. Pincus
Mayer Brown LLP
1999 K Street, N.W.
Washington, DC 20006-1101
(202) 263-3000
apincus@mayerbrown.com

